Audit Report




OIG-10-017
SAFETY AND SOUNDNESS: Material Loss Review of Omni
National Bank
December 9, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Causes of Omni National Bank’s Failure ......................................................... 6
      Omni Pursued an Aggressive Growth Strategy ........................................... 7
      Omni’s Underwriting and Credit Administration of Commercial Real Estate
         Loans Were Unsound…………………………………………………………………10
      Overvalued Redevelopment OREO Delayed Recognition of Losses ................. 14
      Redevelopment Lending Practices Are Under OCC Review ........................... 16

    OCC’s Supervision of Omni National Bank ......................................................              16
      OCC’s 2003-2007 Examinations Identified Problems at Omni but No
         Heightened Level of Supervisory Concern..............................................                  18
      Quarterly Monitoring Was Not Performed During 2007 ................................                       20
      OCC’s January 2008 Examination Identified Omni as Critically Deficient With
         Inadequate Management Oversight and Controls Over Lending ................                             20
      OCC Took Formal Action Against Omni Nearly 9 Months After Examiners
         Determined That Such Action Was Likely Required .................................                      23
      OCC’s Implementation of PCA Was Timely, Based on Original Call Report
         Submissions ......................................................................................     25
      OCC’s Lessons-Learned Review Is Not Yet Complete ..................................                       27
      Other Supervisory Matter-No Official EIC Rotation Policy Exists for
         Midsized and Community Banks ...........................................................               27

    Recommendations ....................................................................................... 28

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              32
    Appendix     2:      Background..........................................................................   35
    Appendix     3:      Glossary of Terms ................................................................     39
    Appendix     4:      Chronology of Significant Events. ...........................................          46
    Appendix     5:      OCC Omni National Bank Examinations, Significant
                         Issues, and Enforcement Actions ............................................           49
    Appendix     6:      Prior OIG Material Loss Review Recommendations ....................                    55
    Appendix     7:      Management Comments ........................................................           57
    Appendix     8:      Major Contributors to This Report ...........................................          60
    Appendix     9:      Report Distribution. ...............................................................   61



                         Material Loss Review of Omni National Bank (OIG-10-017)                          Page i
Abbreviations

  ADC                        assistant deputy comptroller
  ANB                        ANB Financial, National Association
  ARV                        after repaired value
  CEO                        chief executive officer
  DSRC                       District Supervision Review Committee
  EIC                        examiner-in-charge
  FDIC                       Federal Deposit Insurance Corporation
  MRA                        matter requiring attention
  OCC                        Office of the Comptroller of the Currency
  OIG                        Office of Inspector General
  OREO                       other real estate owned
  PCA                        prompt corrective action
  redevelopment division     Community Development Lending Division
  ROE                        report of examination




                 Material Loss Review of Omni National Bank (OIG-10-017)   Page ii
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                        December 9, 2009

                        John C. Dugan
                        Comptroller of the Currency

                        This report presents the results of our review of the failure of Omni
                        National Bank (Omni), headquartered in Atlanta, Georgia, and of
                        the Office of the Comptroller of the Currency’s (OCC) supervision
                        of the institution. OCC closed Omni and appointed the Federal
                        Deposit Insurance Corporation (FDIC) as receiver on March 27,
                        2009. Section 38(k) of the Federal Deposit Insurance Act
                        mandated this review because of the magnitude of Omni’s loss to
                        the Deposit Insurance Fund. 1 As of October 31, 2009, FDIC
                        estimated that the loss to the deposit insurance fund would be
                        $288.2 million. FDIC also estimated that Omni’s failure resulted in
                        a loss of $0.9 million to its Transaction Account Guarantee
                        Program.

                        Our objectives were to determine the cause of Omni’s failure and
                        assess OCC’s supervision of the bank, including implementation of
                        the prompt corrective action (PCA) provisions of section 38(k). To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed key OCC and FDIC officials. Our fieldwork was
                        conducted from April 2009 through October 2009. Appendix 1
                        contains a more detailed description of our material loss review
                        objectives, scope, and methodology.

                        We also include several other appendices in this report. Appendix 2
                        contains background information on Omni and OCC’s supervision
                        and enforcement processes. Appendix 3 provides a glossary of
                        terms used in this report. These terms are underlined and, in the

1
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.

                        Material Loss Review of Omni National Bank (OIG-10-017)                    Page 1
                         electronic version of the report on our Web site, hyperlinked to the
                         glossary. Appendix 4 contains a chronology of significant events
                         related to the bank’s history and OCC’s supervision of the
                         institution. Appendix 5 provides bank examination results and
                         information on enforcement actions. Appendix 6 shows the
                         Treasury Office of Inspector General (OIG) recommendations from
                         material loss reviews of failed OCC-regulated institutions completed
                         since November 2008.


Results in Brief
                         Omni failed because of significant losses suffered in commercial
                         real estate loans primarily originated within its Community
                         Development Lending Division (referred to in this report as the
                         redevelopment division). 2 OCC estimated that Omni’s net operating
                         losses exceeded $14 million in both 2007 and 2008. Omni pursued
                         an aggressive growth strategy beginning in 2003. Its total assets
                         grew by over $768 million from 2003 through 2008, in large part
                         from its increased number and high concentration of commercial
                         real estate loans. During this period, the bank received significant
                         capital injections from the bank’s holding company and expanded
                         geographically, to seven states.

                         While pursuing this growth, Omni’s board of directors and
                         management did not adequately control concentration risk or
                         ensure that adequate internal controls over lending were
                         implemented, leading to deficient underwriting, credit
                         administration, and appraisal practices. Weak controls and deficient
                         practices resulted in the origination of high-risk loans, overvalued
                         other real estate owned (OREO), and large losses. The most
                         problematic loans in the commercial real estate loan portfolio were
                         the short-term redevelopment loans made to investors for the
                         purchase and rehabilitation of housing in lower-income areas.
                         These conditions were exacerbated by the decline in the real estate
                         market and borrowers’ inability to obtain outside financing to pay
                         off Omni loans as they matured.



2
    Omni’s redevelopment lending division was a subset of the bank’s commercial lending division.


                         Material Loss Review of Omni National Bank (OIG-10-017)                    Page 2
It should also be noted that the redevelopment division engaged in
questionable lending practices related to the use of straw
borrowers, possible misuse of escrow funds intended for repairs,
and improper appraisal practices. These practices were under
investigation by OCC at the time of our material loss review.
Nonetheless, we referred these matters and related documentation
to the Treasury Inspector General’s Office of Investigations.

Until 2008, OCC’s examinations of Omni were not adequate and
allowed the bank’s risky lending practices to continue unabated.
OCC’s reports of examination (ROE) for the four examinations of
Omni conducted from 2003 to 2007 resulted in CAMELS
composite ratings of 2 for the institution. The ROEs concluded that
the board and management adequately supervised the bank and
had implemented sound risk management practices. The ROEs
included few matters requiring attention (MRA), and noted few
management oversight issues. In December 2007, OCC assigned a
new examiner-in-charge (EIC) to Omni who had more experience
with problem banks. Shortly thereafter, in January 2008, OCC
began a full-scope examination of Omni. OCC’s ROE for this
examination, which was issued in September 2008, downgraded
Omni’s CAMELS composite rating to 5 and concluded that the
board and management had not effectively managed growth or the
bank’s highly complex risk profile. Omni was found to have severe
management and control deficiencies not identified in prior ROEs.

In February 2008, the EIC identified that formal enforcement action
was likely needed against Omni but OCC did not enter into a
consent order with the bank until October 2008. When we asked
about the length of time it took to implement the consent order,
OCC officials stated there was (1) a need to develop sufficient
findings and legal support for enforcement action and (2) no
immediate need to stop the unsafe and unsound lending practices,
since the bank had ceased redevelopment lending. Had the bank
not already stopped the unsafe and unsound activity, OCC would
have used a temporary cease and desist order to force the bank to
do so. They said that an enforcement action may have been more
appropriate in earlier years, but the prior examinations did not fully
uncover the problems at the bank. OCC officials wanted the 2008
consent order to be forward looking and require actions that could
rehabilitate the bank. Officials noted that throughout 2008,

Material Loss Review of Omni National Bank (OIG-10-017)         Page 3
examiners were on-site to observe the bank’s activities and prevent
Omni from doing further harm to its condition. Also, OCC officials
said that formal enforcement actions are timed to coincide with the
release of ROEs because ROEs provide the justification for such
actions. However, we believe this approach caused unnecessary
delay and that enforcement action was needed in early 2008,
when OCC began to uncover the bank’s problems.

In 2008, once Omni reported that its capital level fell below well-
capitalized, OCC appropriately used its authority under PCA.
Specifically, in August 2008, OCC notified the bank that it was
adequately capitalized based on the June 30, 2008, Consolidated
Report of Condition and Income (call report) submission. This level
of capital prohibited Omni from accepting or renewing brokered
deposits without a waiver from FDIC. OCC also acted forcefully
against the bank in November 2008 and February 2009 when call
reports submitted identified changes in Omni’s capital status. That
said, Omni’s disagreement with its external auditor and OCC over
the valuation of OREO along with other financial reporting
deficiencies delayed PCA by approximately 6 months and filing of
accurate call reports for up to 1 year.

Recommendations

We recommend that OCC (1) review its processes to ensure that
more timely enforcement action is taken once the need for such
action is identified; (2) impress upon each EIC the importance of
completing all activities in annual supervisory cycles, including
quarterly monitoring; and (3) implement a policy for EIC rotation for
midsize and community banks.

Management Response

In a written response, OCC agreed that there were shortcomings in
its supervision of Omni and concurred with our second and third
recommendations. OCC agreed that periodic monitoring is integral
to effective supervision and will continue to reinforce this
expectation to examining staff at upcoming management meetings
and the next national conference call with examining staff. OCC
also agreed that as part of sound supervision, there is benefit to
formalizing a rotation policy for midsize and community banks. In

Material Loss Review of Omni National Bank (OIG-10-017)         Page 4
that regard, OCC is developing a parallel policy (to its large bank
rotation policy) covering portfolio managers and examiners in
charge in midsize and community banks. Pending completion of a
formal policy and procedures manual update, OCC plans to
emphasize this message through district management meetings,
future examiner conference calls, and as other opportunities arise.

OCC did not agree with our first recommendation, to review its
processes to ensure that more timely enforcement action is taken
once the need for such action is identified. OCC agrees that
timeliness is a major determinant in the effectiveness of
enforcement action, but believes the timing of the October 2008
consent order was in compliance with its policy. OCC stated that
appropriate enforcement action would have been taken immediately
had Omni not already ceased redevelopment lending and other
deficient lending practices. In addition, OCC said its examiners
were onsite on a continuous basis, observing the bank’s activities.
OCC said the completion of its ROE in September 2008 provided
the thorough documentation necessary to legally support an
enforcement action. Following completion of the ROE, OCC said
the consent order was promptly in place 3 weeks later. OCC also
said that our position that an informal enforcement action was
warranted would not have complied with its own enforcement
policy and would have sent a message that the bank’s condition
was not as serious as OCC suspected.

OCC’s full response is provided as appendix 7.

OIG Comment

We consider OCC’s planned actions with respect to the two
recommendations with which OCC concurs, to be responsive to
our recommendations.

For the recommendation with which OCC does not concur, we
continue to believe that more timely enforcement action was
needed. For example, OCC said in its response that soon after the
January 2008 examination began, redevelopment lending and other
deficient lending practices had already ceased, and thus immediate
action was not necessary. Yet, financial records we reviewed
showed redevelopment lending continued during this period, albeit

Material Loss Review of Omni National Bank (OIG-10-017)        Page 5
              at a reduced level. While the quality of these redevelopment loans
              may have been better than prior loans (we reviewed a sample of
              these redevelopment loans and found them performing, as of
              March 27, 2009, when Omni was closed), OCC’s examiners also
              told us they did not review the redevelopment lending division in
              2008. We believe that the lack of an examination of this division
              during 2008 raises questions about the extent to which OCC could
              comment on redevelopment lending practices.

              Further, OCC issued an ROE in January 2009 for an examination
              that began in September 2008. This ROE confirmed deficient
              lending practices found in credit administration and underwriting
              evident in the prior examination continued through 2008. As a
              result, we believe OCC should have considered taking action
              immediately. While OCC was concerned that an informal
              enforcement action could send the bank the message that the
              bank’s condition was not as serious as suspected, we believe it
              would be a stronger message to the bank than not taking
              enforcement action for another 9 months.

              That said, OCC asserts that current policies are sufficient to ensure
              that timely enforcement action is taken. Accordingly, while we
              continue to believe OCC’s enforcement actions with respect to
              Omni were slow, we accept its position with respect to its current
              processes and consider the recommendation closed. We will,
              however, continue to assess the timeliness of enforcement actions
              as we proceed on future material loss reviews.

Causes of Omni National Bank’s Failure
              The primary cause of Omni’s failure was the significant losses in its
              commercial real estate loan portfolio, largely originated in the
              redevelopment division. Omni’s management pursued an aggressive
              growth strategy designed to increase the assets of the bank, but
              did not adequately control concentration risk or ensure that
              adequate internal controls were implemented in commercial real
              estate lending. This led to aggressive and overly liberal lending
              practices that included deficient underwriting, credit administration,
              and appraisal practices. OCC estimated that Omni’s net operating
              losses exceeded $14 million in both 2007 and 2008.

              Material Loss Review of Omni National Bank (OIG-10-017)         Page 6
The most problematic loans in the commercial real estate loan
portfolio were the short-term rehabilitation loans made to investors
for the purchase and rehabilitation of housing in lower-income
areas. Omni also overvalued OREO from foreclosed redevelopment
loans, resulting in the filing of inaccurate call reports. These
conditions were exacerbated by the decline in the real estate
market and borrowers’ inability to obtain outside financing to pay
off Omni loans as they matured.

Omni Pursued an Aggressive Growth Strategy

Beginning in 2003, Omni’s board and management began to
aggressively grow the bank. From 2003 to 2006, Omni’s assets
grew from $212 million to $706 million, an average annual growth
rate of almost 50 percent. While Omni’s rate of growth slowed
after 2006, the bank’s assets increased to $980 million by the end
of 2008. Overall, Omni’s assets grew by over $768 million from
2003 through 2008. Figure 1 illustrates Omni’s assets from 2003
through 2008.




Material Loss Review of Omni National Bank (OIG-10-017)        Page 7
Figure 1. Asset Growth of Omni National Bank




             $1,000 
              $900 
              $800 
              $700 
              $600 
  Millions




              $500 
              $400 
              $300 
              $200 
              $100 
                 $0 
                       2003   2004   2005   2006   2007     2008


 Source: OIG analysis of Omni National Bank call reports.

Omni’s aggressive growth was largely concentrated in commercial
real estate, including redevelopment loans. Figure 2 shows the
growth in the various components of the bank’s loan portfolio from
2003 through 2008. The largest loan portfolio during the period
was commercial real estate, which includes redevelopment loans.
In 2007, when the loan portfolio reached its highest value, the
$488 million in commercial real estate loans represented 75
percent of the total loan portfolio. The remaining 25 percent
represented Omni’s consumer and residential lending, along with
the bank’s leasing activities.




Material Loss Review of Omni National Bank (OIG-10-017)            Page 8
Figure 2. Growth and Composition of Omni National Bank’ Loan Portfolio




            $700     Other Lending and
                     Leasing Activities
            $600     Commercial Real Estate
                     Lending                   $160

            $500
                                                      $225
                                        $125
 Millions




            $400

            $300                 $90
                                               $488
            $200          $53           $378          $348
                    $34
                                 $238
            $100          $173
                   $121
              $0
                   2003 2004 2005 2006 2007 2008


 Source: OIG analysis of OCC-provided data.


During this period, Omni also expanded geographically, with 12
banking or loan production offices covering seven states—
Alabama, Florida, Georgia, Illinois, North Carolina, Pennsylvania,
and Texas. Omni’s growth actually exceeded its internal targets.
For example, Omni’s 2005-2007 capital plan estimated a 19
percent average growth rate, while the actual growth rate for those
years averaged 42 percent.

Brokered deposits were a large source of funds for Omni from
2003 through 2008. By December 31, 2007, Omni’s brokered
deposits totaled $442 million, or 48 percent of the bank’s assets.
Over the next 6 months, Omni increased brokered deposits by over
$120 million to maintain liquidity throughout 2008.




Material Loss Review of Omni National Bank (OIG-10-017)                  Page 9
                     Omni’s Underwriting and Credit Administration of Commercial Real
                     Estate Loans Were Unsound

                     Omni’s management did not establish proper controls over
                     commercial real estate loan underwriting and credit administration.
                     Omni originated loans without verifying key financial data, did not
                     properly manage interest reserves, allowed loan officers to have
                     direct contact with appraisers, and maintained insufficient controls
                     over loan withdrawals. Omni also relied on property appreciation to
                     protect its interest in redevelopment loans, rather than borrower
                     ability to repay. In addition, Omni’s appraisal deficiencies often
                     resulted in redevelopment properties being overvalued. When
                     significant volumes of these loans defaulted, the bank incurred
                     large losses.

                     Weaknesses in Commercial Real Estate Lending

                     Significant control weaknesses existed in Omni’s commercial real
                     estate lending. Initial loan credit analyses often lacked verification
                     of key financial figures supporting cash flow, contingent liabilities,
                     and liquidity. Financial statements obtained from borrowers often
                     lacked sufficient detail to fully assess borrower repayment
                     capacity. In the ROE for the examination begun in January 2008,
                     OCC reported that Omni was overly aggressive in its origination of
                     commercial real estate loans, including origination of loans with no
                     or protracted repayment terms and loans that inappropriately used
                     interest reserves. OCC examiners told us that while interest
                     reserves can be appropriate for some construction-type projects,
                     Omni also used interest reserves on raw land and speculative
                     loans, for which OCC has deemed interest reserves to be
                     inappropriate. 3

                     Omni did not have systems and processes to identify, manage, and
                     control the use of interest reserves in commercial lending. During
                     the January 2008 examination, bank management was initially
                     unable to produce a list of loans made using interest reserves or
                     the amount of each commitment. The bank subsequently provided
                     a listing, but OCC considered the accuracy of the information to be

3
 OCC Committee on Bank Supervision, Internal Guidance and Summary of Key Principles of Commercial
Real Estate (Apr. 9, 2008).

                     Material Loss Review of Omni National Bank (OIG-10-017)              Page 10
suspect. One examiner noted that the bank’s inadequate reporting
mechanisms made it difficult to trust most of its financial reports.

In 2007, Omni contracted for an internal audit of the bank’s
commercial lending functions. The internal audit found that
withdrawals for large commercial real estate construction loans
were often approved by the same loan officer who performed the
progress inspection. The internal audit also found over 2,000
underwriting exceptions (including 1,300 deemed critical) relating
to loan collateral and inconsistencies in the reporting of past due
and nonaccrual loan data. The internal audit found these practices
to be high risk.

The 2007 decline in the real estate market compounded Omni’s
problems. As large commercial real estate loans matured, many
borrowers were unable to sell properties to pay off their loans.
Omni often rolled debts over to new loans, capitalizing unpaid
interest into the new loan principal and establishing new interest
reserves to continue funding borrower interest installments. Omni’s
flawed practices associated with appraisals supporting these loans
raised serious questions about the collateral protection and
potential exposures Omni faced.

Reliance of Redevelopment Loans on Property Appreciation

Omni’s underwriting of redevelopment loans, a subset of its
commercial real estate lending activities, relied extensively on the
anticipated appreciation in property values and placed far less
emphasis on the borrower’s credit-worthiness or ability to repay
the loan.

Examples of redevelopment loans originated by Omni with no
consideration of borrower credit-worthiness included

•   a loan to a borrower made days after he was released from
    prison after serving time for mortgage fraud,
•   a loan to a borrower with negative income for 2 consecutive
    years, and
•   a $309,000 loan to a real estate agent who had been employed
    for only 30 days, in which the loan proceeds were to be used,

Material Loss Review of Omni National Bank (OIG-10-017)        Page 11
                            in part, to cover past-due interest payments on redevelopment
                            loans for a different borrower.

                        According to the OCC Comptroller’s Handbook, a loan is generally
                        considered unsound if

                        • its liquidation depends on the sale of the underlying real estate,
                        • the amount of the loan is large relative to the fair value of the
                          property, and
                        • the borrower’s ability to repay is questionable. 4

                        Omni’s deficient redevelopment lending practices, including
                        appraisals discussed later in this report, resulted in loans that met
                        all three of these criteria for unsoundness.

                        Many of the properties associated with Omni’s deficient
                        underwriting practices were ultimately foreclosed. Many of these
                        foreclosed properties were then sold with new Omni-financed
                        redevelopment loans within the same month so that Omni could
                        avoid recording the properties in month-end OREO balances. Each
                        time a foreclosed property was sold with a new Omni loan, the
                        amount of the new loan was larger to cover the costs of the prior
                        loan, thereby increasing the bank’s exposure to loss. In some
                        cases, properties were foreclosed and sold multiple times for higher
                        amounts to avoid losses and mask the bank’s condition.

                        Each subsequent sale of foreclosed property normally included
                        additional funds for property repairs. Often the new loans were
                        made without updated appraisals to support the higher loan
                        amounts. As it had with the original redevelopment loans, the bank
                        relied on appreciation in property value to support the higher loan
                        amounts, rather than borrower ability to repay. From September
                        2006 to September 2007, 169 foreclosed properties were sold to
                        new borrowers who obtained new Omni redevelopment loans,
                        totaling more than $25 million, for these properties. The new loans
                        constituted almost 15 percent of the bank’s redevelopment loan
                        portfolio.



4
    OCC, Comptroller’s Handbook, “Real Estate Loans” (section 213).

                        Material Loss Review of Omni National Bank (OIG-10-017)         Page 12
The 2007 decline in real estate values and the freeze in the sub-
prime credit market exposed Omni’s unsafe and unsound reliance
on property appreciation. Omni borrowers were unable to sell
rehabilitated properties at prices sufficient to pay off outstanding
redevelopment loans because the properties were overvalued or the
purchasers did not qualify for financing. Being unable or unwilling
to repay obligations, many borrowers defaulted on redevelopment
loans.

At the same time, Omni could no longer foreclose and finance the
sale of properties to new borrowers at amounts sufficient to cover
defaulted loans. As a result, Omni faced a significant number of
defaults as redevelopment loans matured. In 2008, Omni’s OREO
portfolio included over 600 properties from foreclosed
redevelopment loans. The only way Omni could sell the properties
was at deep discounts. In March 2008, however, Omni’s chief
executive officer (CEO) directed bank managers to refrain from
selling foreclosed properties at discounted prices because it would
force the bank to recognize significant losses. Consequently, the
properties remained in Omni’s OREO inventory at inflated values.

Deficient Appraisal Practices

OCC’s January 2008 examination determined that Omni’s real
estate appraisal practices were not in compliance with the Uniform
Standards of Professional Appraisal Practice and 12 C.F.R. Part 34.
OCC identified systemic violations in appraisals ordered prior to
2007 and in many ordered in 2007. Among the violations were
allowing direct contact between Omni loan officers and appraisers
and allowing loan officers to order and review completed
appraisals. At times, loan officers also provided appraisers with the
values needed to support the loans and negotiated with appraisers
to obtain these values.

The volume of loans and the uniqueness of Omni’s redevelopment
product led to the bank’s sometimes using properties with prior
redevelopment loans as comparable properties in appraisals. In
other cases, the properties used as comparables were from distant
locations or were more valuable than the property being appraised.
In other words, the comparable properties were not comparable.


Material Loss Review of Omni National Bank (OIG-10-017)        Page 13
In 2007, Omni initiated new appraisal processes that centralized
the ordering and review of appraisals for the entire bank. OCC
believed that the new processes corrected many of the bank’s
deficiencies. The damage, however, was already done because
prior deficient appraisals were not corrected.

Overvalued Redevelopment OREO Delayed Recognition of Losses

At the end of 2006, Omni’s OREO balance was $3.4 million, but it
increased to $21 million by the end of 2007 and to $84 million by
the end of 2008. Approximately 86 percent of the OREO balance
for these 2 years was the result of foreclosed redevelopment loans.
During this period, redevelopment properties included in OREO
increased from about 200 at the end of 2007 to over 600 by the
end of 2008. Figure 3 shows Omni’s OREO balances from 2003 to
2008.

Figure 3. Omni National Bank OREO, 2003-2008




             $90.0                                                  $83.7

             $80.0

             $70.0

             $60.0
  Millions




             $50.0

             $40.0

             $30.0                                         $20.7

             $20.0

             $10.0     $3.9     $0.9     $1.2     $3.4

               $-
                     2003     2004     2005     2006      2007     2008


Source: OIG analysis of Omni call reports. The balances for 2007 and 2008
reflect adjustments required by OCC.




Material Loss Review of Omni National Bank (OIG-10-017)                     Page 14
                      Federal regulations require banks to substantiate the value of each
                      OREO parcel by obtaining either an appraisal or, under certain
                      circumstances, an evaluation. 5 In addition, OCC guidance requires
                      that OREO should be accounted for individually at the lower of the
                      property’s fair value or the bank’s cost. 6

                      Omni recorded OREO using a methodology based on the after
                      repaired value (ARV) of each property adjusted downward for the
                      estimated cost of repairs and selling expenses. Omni’s
                      methodology resulted in properties being recorded in OREO at
                      amounts above market value. Omni did not obtain required
                      appraisals or evaluations at the time of foreclosure to support the
                      recorded OREO value.

                      The external auditor conducting the audit of the 2007 consolidated
                      financial statements of Omni’s holding company concluded that the
                      bank’s methodology based on the ARV resulted in the
                      overstatement of OREO by an estimated 32.5 percent. Omni’s CEO
                      opposed the external auditor’s position. 7

                      In August 2008, OCC required Omni to write down OREO
                      properties by 32.5 percent that were not considered substantially
                      complete. OCC also instructed Omni to refile call reports back
                      through December 31, 2007, to reflect the adjusted OREO values.
                      Omni’s CEO continued to oppose the additional write-down of
                      OREO, informing OCC that these adjustments would impair the
                      bank’s capital and lead to its failure. Nevertheless, Omni refiled its
                      call reports back to December 31, 2007, to reflect increases to the
                      allowance for loan and lease losses provision due to the OREO
                      write-downs. Omni’s updated loan loss provisions totaled $30
                      million for 2007 and $12 million for 2008. 8 The refiled call report
                      for December 31, 2007, also showed that Omni was only

5
  12 C.F.R § 34.85.
6
  OCC, Comptroller’s Handbook, “Other Real Estate Owned” (section 219).
7
  Ultimately, Omni’s holding company, Omni Financial Services Incorporated, never produced audited
financial statements for 2007. It also did not file an annual report for 2007 with the Securities and
Exchange Commission. The failure to file an annual report resulted in the holding company’s stock being
delisted from the NASDAQ Stock Market.
8
  OCC was unable to provide definitive loan loss provision adjustments attributed to revalued OREO due
to other adjustments included by the bank in refiled call reports and the overall poor quality of the
bank’s accounting records.

                      Material Loss Review of Omni National Bank (OIG-10-017)                  Page 15
                       adequately capitalized at that date. The original call report showed
                       that the bank was well-capitalized.

                       Redevelopment Lending Practices Are Under OCC Review

                       In October 2007, Omni’s CEO initiated an internal bank
                       investigation of the redevelopment division. The investigation
                       disclosed several questionable lending practices that reportedly
                       took place in the division. 9 These practices, including the use of
                       straw borrowers, the possible misuse of escrow funds intended for
                       repairs, and improper appraisal practices were under investigation
                       by OCC at the time of our material loss review. We also referred
                       these matters and related documentation to the Treasury Inspector
                       General’s Office of Investigations.


OCC’s Supervision of Omni National Bank
                       OCC’s supervision of Omni National Bank was inadequate and
                       likely led to greater losses to the deposit insurance fund. Although
                       OCC performed timely full-scope examinations as prescribed in
                       internal guidelines, it was not until the examination begun in
                       January 2008 that OCC fully identified Omni’s lack of management
                       controls and oversight, uncontrolled asset growth, and high-risk
                       unsafe and unsound lending practices. These conditions, however,
                       had existed for several years. Had OCC identified these unsafe and
                       unsound practices in earlier examinations, effective action could
                       have been taken to prevent the significant losses faced by the
                       bank.

                       During the early stages of the 2008 examination, the EIC promptly
                       identified the likely need for enforcement action. OCC officials
                       stated there was (1) a need to develop sufficient findings and legal
                       support for enforcement action and (2) no immediate need to stop
                       the unsafe and unsound lending practices, since the bank had
                       ceased redevelopment lending. According to those same officials,
                       had the bank not already stopped the unsafe and unsound activity,

9
 OCC was notified by Omni’s CEO about the internal bank investigation into possible improprieties in
the redevelopment division. OCC officials believe the notification about the internal bank investigation
was made sometime in October 2007 but could not provide a specific date. The CEO presented the
results of the internal bank investigation to Omni’s board of directors in March 2008.

                       Material Loss Review of Omni National Bank (OIG-10-017)                     Page 16
                       OCC would have used a temporary cease and desist order to force
                       the bank to do so. OCC’s implementation of the consent order was
                       delayed to allow OCC to identify the true condition of the bank and
                       provide support for the formal enforcement action. OCC’s efforts
                       to rescue the bank were unsuccessful. In hindsight, according to
                       OCC, formal enforcement action would have been most beneficial
                       years earlier, but prior year examinations did not provide a
                       sufficient basis for taking such action earlier.

                       In July 2008, OCC transferred the supervision of Omni to the
                       Special Supervision Division in Washington, D.C. 10 In August 2008,
                       OCC notified Omni that based on the June 30, 2008, call report, it
                       was in the adequately capitalized category and subject to PCA-
                       required restrictions on accepting and renewing brokered deposits.
                       Although OCC took PCA action promptly based on the June 30,
                       2008, call report, Omni had been filing misleading call reports
                       showing inflated capital levels for at least the two prior quarters.
                       Omni delayed refiling fully corrected call reports until January
                       2009. Had Omni filed accurate call reports for these quarters, the
                       bank would have been deemed less than well-capitalized as of
                       December 31, 2007, and been subject to PCA-required restrictions
                       on accepting brokered deposits sooner.

                       In September 2008, OCC assigned the bank a CAMELS composite
                       rating of 5 and in October 2008 imposed a consent order on the
                       bank. The consent order included specific capital requirements for
                       Omni and appropriate PCA-required restrictions based on the
                       bank’s known capital levels.

                       As another supervisory matter, we noted that the EIC for Omni
                       before the examination that started in January 2008 had been
                       assigned to four consecutive examination cycles for the bank. OCC
                       officials stated that guidelines followed call for rotating EICs every
                       3 to 5 years, however, OCC currently lacks a specific EIC rotation
                       policy for community and midsized banks.




10
  The role of the Special Supervision Division is to supervise problem banks through rehabilitation or
through other resolution processes such as the sale, merger, or liquidation of such institutions.

                       Material Loss Review of Omni National Bank (OIG-10-017)                    Page 17
                         Table 1 summarizes the results of OCC’s full-scope safety and
                         soundness examinations of Omni and enforcement actions taken. 11
                         Appendix 5 contains details of MRAs, corrective actions, and other
                         issues noted during the examinations.

                     Table 1: Summary of OCC’s Omni National Bank Examinations and Enforcement
                              Actions
                                                                     Examination Results
                                                                             Number of
                     Date             Assets         CAMELS       Number     corrective     Enforcement
                     started          ($millions)a   rating       of MRAs    actions        actions
                     06/09/2003         $212         2/222221         3           3         None
                     01/18/2005         $315         2/222121         1           3         None
                     02/16/2006         $476         2/222221         1           1         None
                     02/05/2007         $706         2/222122         1           8         None
                                                                                            Consent order
                                                                                            executed
                     01/07/2008         $907         5/555542        2             7        10/07/2008
                                                                                            Consent order
                     09/08/2008         $980         5/555544       N/Ab           4        remained in place
                     Source: OCC ROEs and Omni call reports.
                     a
                       Amounts are as of December 31 of each year.
                     b
                       No MRAs were included in the ROE for this examination. The scope of the examination
                     was limited to an assessment of the bank’s viability and amount of capital needed for
                     compliance with the October 7, 2008, consent order.



                         OCC’s 2003-2007 Examinations Identified Problems at Omni but
                         No Heightened Level of Supervisory Concern

                         Based on its examinations of Omni from 2003 through 2007, OCC
                         assigned Omni CAMELS composite ratings of 2. Omni also received
                         CAMELS component ratings of 2 for management. Overall, OCC
                         concluded that the board and management adequately supervised
                         the bank’s affairs and had sound risk management practices in
                         place.

                         The ROEs for the examinations conducted during this period did
                         identify some issues, but only the ROE’s for the examinations
                         conducted in 2003 and 2005 hinted at issues that would later


11
     OCC conducted its examinations in accordance with the timeframes prescribed by OCC policy.


                         Material Loss Review of Omni National Bank (OIG-10-017)                        Page 18
become significant factors in Omni’s demise. MRAs included in the
ROE for the 2003 examination criticized the bank for the following:

•   Weak credit administration, including inadequate exception
    tracking and reporting and a loan policy that needed
    enhancement
•   Liquidity management and contingency funding plans that
    needed improvement
•   Lack of a full information technology audit, risk assessment,
    and business resumption plan

The 2003 ROE also cited violations of law relating to two instances
in which Omni did not obtain required appraisals. In one case, Omni
failed to obtain an appraisal for an $800,000 loan secured by
multiple properties. In the other case, no appraisal or internal
valuation document was found to substantiate the $175,000 value
assigned to a property in OREO.

The ROE for the next examination, which began in January 2005,
included one MRA concerning ongoing credit administration
deficiencies, citing the bank’s high number of loan exceptions and
its failure to obtain and analyze annual financial statements from
borrowers. OCC concluded that the credit administration
deficiencies were the same issues reported in the prior ROE.

The one MRA included in the ROE for the examination that began
in January 2006, criticized the bank for having an inadequate
contingency funding plan. OCC found that the plan lacked detail
and did not contain a narrative description of events that could
trigger a disruption of operations. OCC also noted that this was a
repeat issue, although it was not included as a prior MRA.

The one MRA included in the ROE for the examination that began
in February 2007 criticized Omni for failing to perform a Bank
Secrecy Act/anti-money laundering risk assessment. OCC also
reported that the board and management failed to provide proper
oversight of the independent testing conducted on Omni’s Bank
Secrecy Act/anti-money laundering program and did not review the
results reported by an external contractor.



Material Loss Review of Omni National Bank (OIG-10-017)        Page 19
Although OCC assessed Omni’s redevelopment division in the
examinations performed from 2003 through 2006, no MRAs
associated with the division’s practices were included in the ROEs.
The examination that began in February 2007 included a review of
redevelopment loans, but the division’s operations were not
assessed. The ROEs for the examinations conducted in 2003 to
2007 did note that Omni’s risk exposure from redevelopment loans
was high; however, the ROEs also stated that the bank had sound
risk management procedures in place to mitigate the risk posed by
the redevelopment loans. As discussed below, OCC later found
that this was not the case.

Quarterly Monitoring Was Not Performed During 2007

The Comptrollers Handbook states that quarterly monitoring or
periodic monitoring activities are a key component of supervision
by risk. The timing of the activities is to be risk-based and driven
by supervisory objectives rather than predetermined calendar dates.

According to a Southern District internal review, OCC did not
schedule monitoring activities of Omni for the first quarter of 2007.
The internal review also noted that monitoring activities for the
next two quarters were not performed. Officials in OCC’s field
office confirmed that quarterly monitoring was not performed
during 2007. We believe that the lack of quarterly monitoring was
significant because 2007 was a critical period in the decline of
Omni. Given the importance of periodic monitoring, we believe that
OCC’s failure to perform these activities constitutes deficient
oversight of Omni during 2007.

OCC’s January 2008 Examination Identified Omni as Critically
Deficient With Inadequate Management Oversight and Controls
Over Lending

OCC’s Atlanta field office performed an analysis of Omni’s Uniform
Bank Performance Report for the quarter ending September 30,
2007, which revealed asset quality deterioration and significant
increases in Omni’s past due and nonperforming assets. The field
office determined that Omni was a troubled institution and notified
the Southern District office, which placed the bank on OCC’s
watch list in December 2007.

Material Loss Review of Omni National Bank (OIG-10-017)       Page 20
OCC began an examination of Omni on January 7, 2008, under a
newly assigned EIC. The assistant deputy comptroller (ADC) for
OCC’s Atlanta field office stated that he assigned the new EIC
because she was a higher-level examiner than the previous EIC and
had experience with problem banks.

The examination initially focused on Omni’s commercial real estate
lending practices. Although OCC was notified of possible
improprieties in Omni’s redevelopment division, the ADC and the
EIC believed that the bank’s other commercial real estate lending
activities, which had larger loans, posed a higher risk to the bank.
Soon after starting the examination, however, the examiners
identified significant deterioration in the bank’s condition and found
that problems in the redevelopment division were more severe than
had been characterized by Omni’s CEO. In a February 2008
meeting, the EIC informed the CEO that the bank should expect a
downgrade to at least a CAMELS composite rating of 3 and said
she believed that OCC would likely take formal enforcement action.

As OCC’s examination progressed, Omni’s condition continued to
deteriorate. On July 9, 2008, the Atlanta field office proposed to
the District Supervision Review Committee (DSRC) for the
Southern District that Omni’s CAMELS composite rating be
downgraded to 4 and that a consent order be implemented. DSRC
approved the proposed actions on July 9, 2008. Shortly thereafter,
OCC’s Southern District decided to transfer supervision of Omni to
OCC’s Special Supervision Division. That transfer was completed
on July 18, 2008, and the Special Supervision Division assumed
responsibility for issuing the ROE.

The Special Supervision Division determined that Omni’s condition
continued to deteriorate and had become more critical, warranting
a further downgrade. Accordingly, the ROE for this examination,
issued on September 15, 2008, assigned a CAMELS composite
rating of 5 to Omni. In the ROE, OCC concluded that Omni was
critically deficient and that unsafe and unsound practices
threatened the bank’s survival. These unsafe and unsound
practices included

•   inadequate internal control systems,

Material Loss Review of Omni National Bank (OIG-10-017)        Page 21
                      •   ineffective risk management processes, and
                      •   inadequate supervision of management in the commercial and
                          redevelopment lending functions.

                      Among other things, the ROE noted that Omni’s classified assets
                      had risen to 131 percent of capital and that special mention assets
                      represented another 41 percent. Because Omni was unable to
                      identify all of its problem loans, OCC concluded that the full extent
                      of the bank’s problems was not known at the time the ROE was
                      issued. 12

                      The September 15, 2008, ROE also cited Omni for multiple
                      violations of law. The significant violations included Omni’s failure
                      to

                      •   report OREO balances accurately,
                      •   implement adequate Bank Secrecy Act procedures to monitor
                          customer activity,
                      •   obtain a required appraisal for a loan relationship,
                      •   ensure that appraiser independence requirements were met,
                      •   obtain updated appraisals or evaluations on OREO holdings, and
                      •   ensure that the annual independent audit report was completed.

                      Regarding the deficient conditions noted in the bank during OCC’s
                      examination begun in January 2008, the EIC for the examinations
                      conducted from 2003 through 2007 stated that in retrospect OCC
                      could have taken a stronger position on the bank earlier and not
                      allowed Omni to become overly concentrated in real estate lending.
                      The EIC also stated that he now believed that the bank had never
                      fully corrected the credit administration deficiencies cited in the
                      ROE for the examination begun in January 2008 that appeared to
                      be repeat credit administration issues noted in the ROE’s for the
                      examinations conducted in 2003 and 2005.




12
  Banks must rate the risks of loans according to the severity of any problems and maintain
management information systems for monitoring the risk ratings. The regulatory agencies use common
categories for risk-rating problem loans.

                      Material Loss Review of Omni National Bank (OIG-10-017)               Page 22
                       OCC Took Formal Action Against Omni Nearly 9 Months After
                       Examiners Determined That Such Action Was Likely Required

                       There were “red flags” associated with Omni for a number of
                       years, but they had not been identified as significant matters of
                       concern in prior ROEs. These red flags included excessive growth,
                       a risky product line and clientele, and geographic expansion. We
                       believe that had OCC identified these problems earlier, enforcement
                       action could have been taken and may have made a difference for
                       this bank.

                       That said, in February 2008, the EIC informed Omni that she
                       believed the bank’s condition warranted a downgrade and formal
                       enforcement action and in March 2008, the ADC informed the
                       OCC’s Southern District office that a downgrade to a CAMELS
                       composite rating of 3 along with a recommendation for a cease
                       and desist order was likely. OCC, however, did not implement a
                       consent order until October 7, 2008. 13

                       When we asked about the length of time it took to implement the
                       consent order, OCC officials stated that there was no immediate
                       need to stop unsafe and unsound practices since the bank had
                       ceased redevelopment lending and other deficient lending practices,
                       which they considered to be the root cause of the bank’s problems.
                       Had the bank not already stopped the unsafe and unsound activity,
                       OCC would have used a temporary cease and desist order to force
                       the bank to do so. OCC officials also noted that examiners were
                       on-site observing the bank’s activities to prevent Omni from any
                       unsafe and unsound lending that could further harm its condition.

                       OCC officials stated that to take formal enforcement action, OCC
                       must be able to introduce into evidence sufficient findings and legal
                       support to prove the circumstances on which the action is based.
                       Absent exigent circumstances, the ROE is typically used to
                       document the findings and legal support. In this regard, the ROE for
                       the 2008 examination was completed on September 15, 2008, and
                       the consent order was taken within 3 weeks. In the case of Omni,
                       as with most enforcement actions taken against national banks,

13
  The consent order required that Omni address deficiencies in management, capital, asset quality,
earnings, and liquidity within specified timeframes.

                       Material Loss Review of Omni National Bank (OIG-10-017)                  Page 23
OCC also wanted the consent order to be a forward looking
document requiring actions that could rehabilitate the bank.

According to OCC officials, the ROE was delayed because of the
continued deterioration of the bank and Omni’s inability to provide
accurate financial information to examiners, a situation we agree
was a problem. Examiners also needed time to fully gather
necessary evidence to support the ROE and ultimately the consent
order. As discussed above, very soon after the start of the 2008
examination, the examiners believed Omni should be assigned a
CAMELS composite rating of 3. As conditions deteriorated further
and additional deficiencies were uncovered, examiners concluded
that the bank’s CAMELS composite rating should be further
downgraded to a 4 which required that the case be presented to
DSRC. After the DSRC decision, the Southern District office
transferred supervision of the bank to the Special Supervision
Division in OCC’s headquarters. As a result of the bank’s
continuing deterioration, the Special Supervision Division concluded
that a further downgrade to a CAMELS composite rating of 5 was
necessary.

We asked whether informal enforcement action was considered.
OCC officials stated in the case of Omni, informal action was not
necessary. The bank’s significant problems identified during the
2008 examination resulted from unsafe and unsound lending that
the bank had ceased in late 2007. Accordingly, the officials
believed that there was nothing that OCC needed to do
immediately to prevent further harm. We find it unusual that OCC
would take a position that, absent a formal enforcement action
early on, it did not see a benefit to enter into a memorandum of
understanding or take other action earlier to make clear its
expectations. While examiners may have been on-site watching the
bank, Omni was still under the control of the same board and
executive leadership that allowed the redevelopment division to
operate in an unsafe and unsound manner for so many years.

We acknowledge OCC’s need to develop sufficient support to
determine appropriate enforcement action and defend that action.
We also understand the considerable judgment that is involved.
However, in the case of Omni, it took nearly 9 months from the
time OCC first identified that formal enforcement action was

Material Loss Review of Omni National Bank (OIG-10-017)        Page 24
needed to the time the consent order was implemented. We believe
the supervisory process used to issue the Omni consent order was
slow and points to a need for OCC to reassess its process.

OCC’s Implementation of PCA Was Timely, Based on Original Call
Report Submissions

The purpose of PCA is to resolve the problems of insured
depository institutions with the least possible long-term loss to the
deposit insurance fund. PCA requires federal banking agencies to
take certain actions when an institution’s capital drops to certain
levels. PCA also gives regulators flexibility to discipline institutions
based on criteria other than capital levels to help reduce deposit
insurance losses caused by unsafe and unsound practices.

OCC implemented PCA as described below based on Omni’s call
report submissions for June 30, 2008, September 30, 2008, and
December 31, 2008. We concluded that the actions taken on these
submissions were timely and in accordance with PCA
requirements.

•   On August 4, 2008, OCC notified Omni that it was adequately
    capitalized based on the bank’s June 30, 2008, call report. This
    was the first call report filed by Omni that showed the bank as
    less than well-capitalized. As required by PCA, OCC’s notice
    prohibited the bank from accepting or renewing brokered
    deposits unless it obtained a waiver from FDIC.

•   On November 4, 2008, OCC notified Omni that it was
    undercapitalized based on the bank’s September 30, 2008, call
    report. OCC directed Omni to submit an acceptable capital
    restoration plan. OCC rejected Omni’s capital restoration plan,
    submitted on December 15, 2008, because it was based on
    unrealistic assumptions, did not adequately address how
    deficiencies would be corrected, and did not include a guarantee
    and pledge of assets from Omni’s holding company.

•   On February 4, 2009, OCC notified the bank that it was
    significantly undercapitalized based on the December 31, 2008,
    call report. OCC once again directed Omni to submit an
    acceptable capital restoration plan and also informed Omni that

Material Loss Review of Omni National Bank (OIG-10-017)           Page 25
    it must comply with PCA-required restrictions on the payment
    of dividends and management fees.

Omni refiled its December 31, 2007, call report on July 30, 2008,
as directed by OCC, to reflect a write-down of the OREO balance
and other adjustments. The revised call report resulted in the bank
being classified as adequately capitalized as of December 31,
2007. Had Omni filed an accurate call report for December 31,
2007, Omni would have been designated adequately capitalized 6
months sooner. This designation would have prevented Omni,
under PCA, from accepting brokered deposits without an FDIC
waiver beginning in February 2008. Instead, Omni continued
accepting brokered deposits during that time totaling over $120
million in the first 6 months of 2008. Omni’s ability to obtain these
brokered deposits may have increased the loss to the deposit
insurance fund.

OCC was aware that Omni would again need to refile call reports
for December 31, 2007, March 31, 2008, and June 30, 2008, due
to additional OREO write-downs. In August 2008, OCC directed
the bank to refile the corrected call reports and considered but did
not impose civil money penalties for Omni’s failure to comply.
OCC’s Special Supervision Division officials told us that the bank
was allowed more time to complete the OREO revaluation because
the process was more complex than originally anticipated and a
large number of properties were involved.

We believe that OCC should have been more forceful with Omni in
the matter of refiling the call reports. In August 2008, OCC
confirmed that Omni’s OREO was overstated and directed the bank
to refile call reports. According to OCC’s August 2008
documentation, the bank had sufficient information available in
May 2008 to refile the call reports. OCC’s documentation also
showed that OCC officials suspected that Omni’s CEO was
delaying refiling the call reports. The CEO continued to disagree
with the OREO valuation methodology recommended by the
external auditor and OCC. The CEO informed OCC that the
methodology resulted in inaccurately low values and if Omni was
required to make these adjustments, the bank’s capital would be
impaired and the bank could fail. It was not until January 2009


Material Loss Review of Omni National Bank (OIG-10-017)        Page 26
                      that Omni included the final adjustments for OREO in refiled call
                      reports dating back to December 31, 2007.

                      OCC Lessons-Learned Review Is Not Yet Complete

                      According to OCC headquarters officials, an internal lessons-
                      learned review of the failure of Omni was in process but had not
                      been completed at the time of our review. The purpose of the
                      review is to assess both the causes of the failure and OCC’s
                      supervision of the bank. 

                      Other Supervisory Matter – No Official EIC Rotation Policy Exists
                      for Midsized and Community Banks

                      OCC’s lessons-learned review for ANB Financial, National
                      Association (ANB), noted that the EIC responsible for supervision
                      of that bank had been in place for three consecutive
                      examinations. 14 OCC stated in its lessons-learned report that, in
                      hindsight, the rotation of the EIC for the next cycle would have
                      been advisable. In the case of Omni, one EIC was responsible for
                      oversight of the bank for four consecutive supervisory cycles, from
                      2003 through 2007.

                      The Comptrollers Handbook states that EICs are to be rotated
                      periodically to ensure that their supervisory perspective remains
                      objective. According to OCC Southern District and Headquarters
                      officials, no formal policy has been established that set specific
                      time-frames for the rotation of EICs for midsized and community
                      banks. They stated that the general guideline followed is for EICs
                      to be rotated on a 3-to-5 year basis.

                      As noted in the ANB lessons-learned review, rotating EICs is an
                      opportunity for OCC to gain a fresh perspective on a bank and to
                      ensure regulatory objectivity. EIC rotation is an area that we
                      believe warrants more formal OCC policy guidance.


14
   OCC closed ANB and appointed FDIC as receiver on May 9, 2008. The estimated loss to the deposit
insurance fund of the failure was $819 million as of October 31, 2009. We performed a material loss
review of the ANB failure and issued our report on November 25, 2008 (Safety and Soundness: Material
Loss Review of ANB Financial, National Association; OIG-09-013). OCC’s lessons learned review of
ANB was not completed at the time we issued our report on the material loss review.

                      Material Loss Review of Omni National Bank (OIG-10-017)               Page 27
Recommendations
           Our material loss review of Omni is the sixth such review we have
           performed of a failed OCC-regulated financial institution during the
           current financial crisis. Appendix 6 lists the other five material loss
           reviews and our associated recommendations. OCC management
           agreed with the prior recommendations and has taken or is taking
           corrective actions to address them.

           Based on our material loss review of Omni, we recommend that the
           Comptroller of the Currency do the following:

           1. Review OCC processes to ensure that more timely enforcement
              action is taken once the need for such action is identified.

               Management Response

               OCC did not concur with this recommendation. OCC agrees that
               timeliness is a major determinant in the effectiveness of
               enforcement action, but believes the timing of the October
               2008 consent order was in compliance with its policy. OCC
               stated that appropriate enforcement action would have been
               taken immediately had Omni not already ceased redevelopment
               lending and other deficient lending practices. In addition, OCC
               said its examiners were onsite on a virtual continuous basis,
               observing the bank’s activities. OCC said the completion of its
               ROE in September 2008 provided the thorough documentation
               necessary to legally support an enforcement action. Following
               completion of the ROE, OCC said the consent order was
               promptly in place 3 weeks later. OCC also said that our position
               that an informal enforcement action was warranted would not
               have complied with its own enforcement policy and would have
               sent a message that the bank’s condition was not as serious as
               OCC suspected.

               OIG Comment

               We continue to believe that more timely enforcement action
               was needed. For example, OCC said in its response that soon

           Material Loss Review of Omni National Bank (OIG-10-017)          Page 28
    after the January 2008 examination began, redevelopment
    lending and other deficient lending practices had already
    ceased, and thus immediate action was not necessary. Yet,
    financial records we reviewed showed redevelopment lending
    continued during this period, albeit at a reduced level. While the
    quality of these redevelopment loans may have been better than
    prior loans (we reviewed a sample of these redevelopment loans
    and found them performing, as of March 27, 2009, when Omni
    was closed), OCC’s examiners also told us they did not review
    the redevelopment lending division in 2008. We believe that the
    lack of an examination of this division during 2008 raises
    questions about the extent to which OCC could comment on
    redevelopment lending practices.

    Further, OCC issued an ROE in January 2009 for an
    examination that began in September 2008. This ROE
    confirmed deficient lending practices found in credit
    administration and underwriting evident in the prior examination
    continued through 2008. As a result, we believe OCC should
    have considered taking action immediately. While OCC was
    concerned that an informal enforcement action could send the
    bank the message that the bank’s condition was not as serious
    as suspected, we believe it would be a stronger message to the
    bank than not taking enforcement action for another 9 months.

    That said, OCC has asserted that its current policies are
    sufficient to ensure that timely enforcement action is taken.
    Furthermore, in the case of Omni, OCC officials agreed that
    because prior examinations were deficient, OCC had to
    effectively build the case against the bank. This approach
    delayed enforcement action that clearly needed to be taken as
    quickly as possible. However, we accept OCC’s assertion that
    current policies are sufficient and consider the recommendation
    closed. We will continue to assess the timeliness of OCC’s
    enforcement actions as we proceed on future material loss
    reviews.

2. Impress upon examiner staff the importance of completing all
   activities in annual supervisory cycles, including quarterly
   monitoring. In this regard, supervisors should ensure that
   quarterly monitoring activities are scheduled and carried out.

Material Loss Review of Omni National Bank (OIG-10-017)        Page 29
    Management Response

    OCC concurred with this recommendation. OCC agreed that
    periodic monitoring is integral to effective supervision and will
    continue to reinforce this expectation to examining staff at
    upcoming management meetings and the next national
    conference call with examining staff.

    OIG Comment

    We consider OCC’s planned action to be responsive to our
    recommendation. OCC did not identify the specific timeframe
    for the actions. OCC will need to establish completion dates for
    these actions in the Department of the Treasury, Joint Audit
    Management Enterprise System.

3. Implement a policy for EIC rotation for midsize and community
   banks.

    Management Response

    OCC concurred with this recommendation. OCC agreed that as
    part of sound supervision, there is benefit to formalizing a
    rotation policy for midsize and community banks. In that regard,
    OCC is developing a parallel policy (to its large bank rotation
    policy) covering portfolio managers and examiners in charge in
    midsize and community banks. Pending completion of a formal
    policy and procedures manual update, OCC plans to emphasize
    this message through district management meetings, future
    examiner conference calls, and as other opportunities arise.

    OIG Comment

    We consider OCC’s planned action to be responsive to our
    recommendation. OCC did not identify the specific timeframe
    for the actions. OCC will need to establish completion dates for
    these actions in the Department of the Treasury, Joint Audit
    Management Enterprise System.



Material Loss Review of Omni National Bank (OIG-10-017)          Page 30
                                 ******

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Kenneth Dion, Audit Manager, at
(617) 223-8641. Major contributors to this report are listed in
appendix 7.


/s/
Donald P. Benson
Audit Director




Material Loss Review of Omni National Bank (OIG-10-017)     Page 31
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Omni National Bank
                        (Omni), Atlanta, Georgia, in response to our mandate under section
                        38(k) of the Federal Deposit Insurance Act. 15 This section provides
                        that if a Deposit Insurance Fund incurs a material loss with respect
                        to an insured depository institution, the inspector general for the
                        appropriate federal banking agency is to prepare a report to the
                        agency, which shall

                        •    ascertain why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    review the agency’s supervision of the institution, including
                             implementation of the Prompt Corrective Action provisions of
                             section 38; and
                        •    make recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within
                        6 months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Omni based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC).
                        As of October 31, 2009, FDIC estimated that the loss to the
                        deposit insurance fund would be $288.2 million. FDIC also
                        estimated that Omni’s failure resulted in a loss of $0.9 million to its
                        Transaction Account Guarantee Program.

                        Our objectives were to determine the cause of Omni’s failure and
                        assess the bank’s supervision by the Office of the Comptroller of
                        the Currency (OCC). To accomplish our review, we conducted
                        fieldwork at OCC headquarters in Washington, D.C., its district
                        office in Dallas, Texas, and its field office in Atlanta, Georgia. We
                        also performed work and interviewed officials at FDIC’s Division of
                        Resolutions and Receiverships in Dallas, Texas, and at the Omni
                        National Bank Receivership operated by FDIC in Atlanta, Georgia.



15
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Omni National Bank (OIG-10-017)         Page 32
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OCC’s supervision of Omni, we
determined (1) when OCC first identified safety and soundness
problems at Omni, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also determined whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. We performed the following work:

•   We determined that the time period covered by our audit would
    be June 9, 2003, through Omni’s failure on March 27, 2009.
    This period included five full-scope safety and soundness
    examinations and one targeted safety and soundness
    examination. The targeted examination was completed after
    OCC assigned the bank a CAMELS composite rating of 5. We
    also reviewed OCC supervisory files and records for Omni for
    the same time period. We analyzed examination reports,
    supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OCC used to assess the bank’s condition, and
    the regulatory action OCC used to compel bank management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.

•   We interviewed and discussed various aspects of OCC’s
    supervision of Omni with OCC officials, examiners, and
    attorneys to obtain their perspective on the bank’s condition
    and the scope of the examinations.

•   We interviewed personnel with FDIC’s Division of Resolutions
    and Receiverships who were involved in the receivership and
    asset resolution process, which was conducted after Omni’s
    closure and FDIC’s appointment as receiver.

•   We interviewed Omni’s former president and chief financial
    officer concerning the bank’s methodology for valuing other real
    estate owned.

Material Loss Review of Omni National Bank (OIG-10-017)       Page 33
Appendix 1
Objectives, Scope, and Methodology




•   We assessed OCC’s actions based on its internal guidance and
    the requirements of the Federal Deposit Insurance Act (12
    U.S.C. §1820(d).

We conducted our fieldwork from April 2009 through October
2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Material Loss Review of Omni National Bank (OIG-10-017)      Page 34
Appendix 2
Background




Omni National Bank History and Corporate Structure

Omni Financial Services Incorporated (OFSI), a private
redevelopment lender in Atlanta, Georgia, commenced operations
in 1992. OFSI was approved as a bank holding company by the
Board of Governors of the Federal Reserve System in March 2000.
At the same time, OFSI acquired United National Bank, a troubled
minority-owned bank in Fayetteville, North Carolina. In February
2001, United National Bank was renamed Omni National Bank
(Omni). Omni offered consumer and business lending services, with
a focus on community redevelopment lending. Omni’s
redevelopment lending division originated loans primarily in low-
and moderate-income neighborhoods in inner cities. Omni’s
headquarters moved to Atlanta, Georgia, in July 2005.
At its peak, Omni had 12 banking or loan production offices
covering 7 states including Alabama, Florida, Georgia, Illinois,
North Carolina, Pennsylvania, and Texas.

OFSI stock began to be traded on the NASDAQ Stock Market on
September 29, 2006. The holding company obtained $33 million in
capital from an initial public stock offering and was publicly traded
until July 22, 2008. Portions of the funds obtained through OFSI’s
initial public stock offering were used to infuse capital into Omni.
As of December 31, 2006, OFSI’s directors and employees owned
approximately 57.8 percent of the holding company’s common
stock, with the bank’s chief executive officer and executive vice
president of the redevelopment lending division being the primary
shareholders of the holding company. At the time of its failure on
March 27, 2009, Omni had approximately $937 million in assets.

Appendix 4 contains a chronology of significant events regarding
Omni and OFSI.

Types of Examinations Conducted by OCC

The Office of the Comptroller of the Currency (OCC) conducts
various types of bank examinations, including safety and
soundness, compliance, and information technology.

OCC must schedule full-scope, onsite examinations of insured
banks once during a 12-month cycle. All de novo banks are subject

Material Loss Review of Omni National Bank (OIG-10-017)        Page 35
                      Appendix 2
                      Background




                      to the 12-month examination cycle. The 12-month cycle should
                      continue until the bank has had two full-scope, on-site
                      examinations and achieved stability with regard to earnings, core
                      business operations, and management.

                      OCC may extend the examination interval to 18 months for insured
                      banks with total assets of $500 million 16 or less that

                      •   for the most recent examination received a CAMELS composite
                          rating of 1 or 2,
                      •   for the most recent examination received a CAMELS
                          Management component rating of 1 or 2,
                      •   are well-capitalized,
                      •   are not currently subject to a formal enforcement proceeding or
                          order by OCC, the Federal Deposit Insurance Corporation
                          (FDIC), or the Federal Reserve System; and
                      •   have not undergone a change in control during the 12-month
                          period since completion of the previous full-scope, onsite
                          examination.

                      OCC also performs targeted safety and soundness examinations,
                      which can include assessment of CAMELS ratings along with other
                      specific review objectives disclosed in the report of examination.

                      During a full-scope examination, examiners conduct an onsite
                      examination and rate all CAMELS components. The six components
                      are Capital adequacy, Asset quality, Management, Earnings,
                      Liquidity, and Sensitivity to market risk (CAMELS). OCC then
                      assigns each bank a composite rating based on its assessment of
                      the overall condition and level of supervisory concern. The rating
                      scale ranges from 1 to 5, with a rating of 1 indicating the strongest
                      performance and risk management practices relative to the bank’s
                      size, complexity, and risk profile and the level of least supervisory
                      concern. A rating of 5 indicates the most critically deficient level of
                      performance; inadequate risk management practices relative to the
                      bank’s size, complexity, and risk profile; and the greatest
                      supervisory concern. The CAMELS rating system is common to all
                      banks. Generally, each CAMELS component rating reflects

16
  On September 21, 2007, OCC finalized an interim rule that raised the asset total ceiling for 18-month
examination cycles from $250 million to $500 million for qualified, well-managed banks.

                      Material Loss Review of Omni National Bank (OIG-10-017)                   Page 36
Appendix 2
Background




examination findings and an examiner’s assessment of the bank’s
performance in each of the six components.

Enforcement Actions Available to OCC

OCC bank examinations result in the issuance of reports of
examination which identify areas of concern. Both informal and
formal enforcement actions are available to OCC to address
violations of laws and regulations and to address unsafe and
unsound practices.

Informal Enforcement Actions

When a bank’s overall condition is sound, but it is necessary to
obtain written commitments from its management or board of
directors to ensure that they correct identified problems and
weaknesses, OCC may use informal enforcement actions. Informal
enforcement actions provide a bank with more explicit guidance
and direction than a report of examination normally contains but
are generally not legally binding. OCC commonly uses informal
actions for problems in banks that are well- or adequately
capitalized or have a composite rating of 1, 2, or 3.

Informal actions notify management and a bank’s board that OCC
has identified problems that warrant attention. A record of informal
action is useful in case formal action is necessary later.

Informal enforcement actions include commitment letters,
memoranda of understanding, and safety and soundness plans
ordered pursuant to 12 CFR Part 30. Commitment letters and
memoranda of understanding contain specific bank commitments
to take corrective actions in response to problems or concerns
identified by OCC. Part 30 safety and soundness plans, which
banks must submit to OCC for approval, outline steps a bank will
take and timeframes to correct identified deficiencies. OCC is not
legally required to publicly disclose informal enforcement actions.

The effectiveness of informal action depends in part on the
willingness and ability of a bank to correct deficiencies that OCC
finds. If a bank violates or refuses to comply with an informal
action, OCC cannot enforce compliance in federal court or assess

Material Loss Review of Omni National Bank (OIG-10-017)        Page 37
                        Appendix 2
                        Background




                        civil money penalties for noncompliance. However, OCC may
                        initiate more severe enforcement action against a noncompliant
                        bank.

                        Formal Enforcement Actions

                        Formal enforcement actions are enforceable under the Federal
                        Deposit Insurance Act. They are appropriate when a bank has
                        significant problems, especially when there is a threat of harm to
                        the bank, depositors, or the public. OCC is to use formal
                        enforcement actions when informal actions are considered
                        inadequate, ineffective, or otherwise unlikely to secure correction
                        of safety and soundness or compliance problems.

                        Formal enforcement actions include cease and desist orders
                        (including consent orders), civil money penalties, and Prompt
                        Corrective Action directives. Unlike informal actions, formal
                        enforcement actions are made public.

                        OCC can assess civil money penalties against banks and individuals
                        for noncompliance with formal enforcement actions and can also
                        request a federal court to require a bank to comply with an order.

                        OCC Enforcement Guidelines

                        OCC enforcement guidelines call for consideration of the following
                        factors in determining whether to use informal action or formal
                        action to address issues found by examiners:

                        •   the overall condition of the bank;
                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;
                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and
                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 17




17
     OCC Bank Supervision Operations—Enforcement Action Policy (PPM 5310-3).

                        Material Loss Review of Omni National Bank (OIG-10-017)         Page 38
                    Appendix 3
                    Glossary of Terms




After repaired value                An estimate of what real property would sell for if it
                                    was repaired and in average condition for the area.
                                    After repaired values relate to redevelopment or
                                    rehabilitation projects.

Allowance for loan and              An estimate of uncollectible amounts that is used
lease losses                        to reduce the book value of loans and leases to the
                                    amount that is expected to be collected. It is
                                    established in recognition that some loans in the
                                    institution’s overall loan and lease portfolio will not be
                                    repaid.

Brokered deposit                    Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. The bank solicits deposits by
                                    offering rates of interest that are significantly higher
                                    than the rates offered by other insured depository
                                    institutions in its normal market area. Use of brokered
                                    deposits is limited to well-capitalized insured
                                    depository institutions and, with a waiver from the
                                    Federal Deposit Insurance Corporation (FDIC), to
                                    adequately capitalized institutions. Undercapitalized
                                    institutions are not permitted to accept brokered
                                    deposits. (See 12 U.S.C. § 1831(f) and 12 C.F.R. §
                                    337.6)

Call report                         A quarterly report of income and financial condition
                                    that banks file with their regulatory agency. The
                                    contents of a call report include consolidated detailed
                                    financial information on assets, liabilities, capital, and
                                    loans to executive officers, as well as income,
                                    expenses, and changes in capital accounts.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: Capital adequacy, Asset quality,
                                    Management, Earnings, Liquidity, and Sensitivity to
                                    market risk. Numerical values range from 1 to 5, with
                                    1 being the best rating and 5 being the worst.

Capital restoration plan            A plan submitted to the appropriate federal banking
                                    agency by an undercapitalized insured depository
                                    institution. A capital restoration plan specifies the

                    Material Loss Review of Omni National Bank (OIG-10-017)             Page 39
                  Appendix 3
                  Glossary of Terms




                                  steps the insured depository institution is to take to
                                  become adequately capitalized, the levels of capital to
                                  be attained during each year in which the plan is in
                                  effect, how the institution is to comply with the
                                  restrictions or requirements then in effect, the types
                                  and levels of activities in which the institution is to
                                  engage, and any other information that the federal
                                  banking agency may require.

Commercial real                   Loans for real property where the primary or
estate loans                      significant source of repayment is from rental income
                                  associated with the property or the proceeds of the
                                  sale, refinancing, or permanent financing of the
                                  property. Commercial real estate loans include
                                  construction and real estate development, land
                                  development, and commercial properties such as
                                  office buildings and shopping centers.

Concentration (of credit)         A situation where direct, indirect, or contingent
                                  obligations exceed 25 percent of a bank's capital
                                  structure.

Concentration risk                Risk in a loan portfolio that arises when a
                                  disproportionate number of an institution’s loans are
                                  concentrated in one or a small number of financial
                                  sectors, geographical areas, or borrowers.

Consent order                     The title given by the Office of the Comptroller of the
                                  Currency (OCC) to a cease and desist order, which is
                                  entered into and becomes final through the board of
                                  directors’ execution, on behalf of the bank, of a
                                  stipulation and consent document. Its provisions are
                                  set out in article-by-article form and prescribe
                                  restrictions and remedial measures necessary to
                                  correct deficiencies or violations in the bank in order
                                  to return it to a safe and sound condition.

Contingency funding plan          A cash flow projection and comprehensive funding
                                  plan that forecasts funding needs and funding sources
                                  under various market scenarios.


                  Material Loss Review of Omni National Bank (OIG-10-017)           Page 40
                   Appendix 3
                   Glossary of Terms




De novo bank                       A newly chartered bank that has been open for less
                                   than 3 years.

District Supervision               An OCC committee in each district that ensures
Review Committee                   that OCC bank supervision and enforcement policies
                                   are applied effectively and consistently. Each
                                   committee advises the deputy comptroller for its
                                   district on bank supervision and enforcement cases by
                                   providing recommendations on supervisory strategies
                                   and enforcement actions.

Division of Resolutions            A division within FDIC that is charged with
And Receiverships                  resolving failing and failed financial institutions,
                                   including ensuring that depositors have prompt access
                                   to their insured funds.

Evaluation                         A valuation required by appraisal regulations for
                                   transactions that qualify for appraisal threshold
                                   exemptions.

Full-scope examination             Examination activities performed during the
                                   supervisory cycle that (1) are sufficient in scope to
                                   assign or confirm a bank’s CAMELS composite and
                                   component ratings; (2) satisfy core assessment
                                   requirements; (3) result in conclusions about a bank’s
                                   risk profile; (4) include on-site supervisory activities;
                                   and (5) generally conclude with the issuance of a
                                   report of examination.

Interest reserve                   An account established to allow a lender to
                                   periodically advance loan funds to pay interest
                                   charges on the outstanding balance of a loan. Interest
                                   reserves are often used for construction and
                                   development loans.

Loan exceptions                    Conditions applicable to a loan that are contrary to a
                                   bank’s written loan policy, procedures or underwriting
                                   guidelines or where documentation needed to legally
                                   enforce the loan agreement are missing.



                   Material Loss Review of Omni National Bank (OIG-10-017)             Page 41
                   Appendix 3
                   Glossary of Terms




Loan production office             A banking office that takes loan applications and
                                   arranges financing for corporations and small
                                   businesses but does not accept deposits. Loan
                                   applications are subject to approval by the lending
                                   institution.

Matter requiring attention         A bank practice noted during an examination that
                                   deviates from sound governance, internal control, and
                                   risk management principles, which may adversely
                                   affect the bank’s earnings or capital, risk profile, or
                                   reputation if not addressed. It may also result in
                                   substantive noncompliance with laws and regulations,
                                   internal policies or processes, OCC supervisory
                                   guidance, or conditions imposed in writing in
                                   connection with the approval of any application or
                                   other request by a bank. Matters requiring attention
                                   are not enforcement actions, but failure by a bank’s
                                   board and management to address a matter requiring
                                   attention could lead to an enforcement action.

NASDAQ Stock Market                The National Association of Securities Dealers
                                   Automated Quotation stock market. The NASDAQ
                                   Stock Market was developed in 1971 as the first
                                   electronic stock exchange in the world, used to trade
                                   over the counter stocks.

Order of Investigation             OCC administrative action initiating an investigation of
                                   a bank for possible insider abuse, mortgage fraud,
                                   manipulation of records, violation of laws, and unsafe
                                   and unsound banking practices. The action grants
                                   OCC’s Enforcement and Compliance Division authority
                                   to issue subpoenas and take sworn statements.

Other real estate owned            Real properties that a bank has acquired that do not
                                   constitute its banking facilities. Such properties
                                   include real estate acquired in full or partial
                                   satisfaction of a debt previously contracted and are
                                   subject to specific holding periods, disposition
                                   requirements, and appraisal requirements.



                   Material Loss Review of Omni National Bank (OIG-10-017)           Page 42
                   Appendix 3
                   Glossary of Terms




Problem bank report                A report prepared by OCC’s Special Supervision/Fraud
                                   Division with input from district and field offices. The
                                   report includes all banks supervised by the Special
                                   Supervision Division and all other banks with a
                                   CAMELS composite rating of 3, 4, or 5.

Prompt corrective action           A framework of supervisory actions, set forth in 12
                                   U.S.C.§ 1831o, for insured banks that are not
                                   adequately capitalized. It was intended to ensure that
                                   action is taken when an institution becomes financially
                                   troubled in order to prevent a failure or minimize
                                   resulting losses. These actions become increasingly
                                   severe as a bank falls into lower capital categories.
                                   The capital categories are well-capitalized, adequately
                                   capitalized, undercapitalized, significantly
                                   undercapitalized, and critically undercapitalized. The
                                   prompt corrective action minimum requirements are as
                                   follows:

                                                          Tier 1/
                                     Total                Risk-              Tier 1/
              Capital Category       Risk-Based           Based              Leverage
                                       10% or         and 6% or           and 5% or greater
              Well-capitalizeda
                                       greater              greater
              Adequately               8% or          and 4% or           and 4% or greater
              capitalized              greater              greater             (3% for 1-rated)
                                       Less           or    Less          or    Less than 4% (except
              Undercapitalized
                                       than 8%              than 4%             for 1-rated)
              Significantly            Less           or    Less          or    Less than 3%
              undercapitalized         than 6%              than 3%
                                       Has a ratio of tangible equity to total assets that is equal
              Critically
                                       to or less than 2 percent. Tangible equity is defined in
              undercapitalized
                                       12 C.F.R. § 565.2(f).
              a
                Banks that are subject to higher capital requirements imposed by OCC cannot be
              classified as well-capitalized.



Redevelopment loan                 Real estate construction loan originated to support the
                                   restoration of low-to-moderate-income neighborhoods.
                                   Omni National Bank’s redevelopment loans were
                                   originated by the bank’s Community Development
                                   Lending division.


                   Material Loss Review of Omni National Bank (OIG-10-017)                     Page 43
                 Appendix 3
                 Glossary of Terms




Safety and soundness             The part of an examination that includes a review and
examination                      evaluation of each CAMELS component rating (see
                                 explanation of CAMELS above).

Straw borrower                   An individual used to serve as a cover for a
                                 questionable transaction. The true identity or
                                 motivation of the actual borrower is kept secret to
                                 obtain loan approval because the actual borrower may
                                 not qualify for the loan.

Targeted examination             A bank examination that does not fulfill all of the
                                 requirements of a statutory full-scope examination.
                                 Targeted examinations may focus on one particular
                                 product, function, or risk, or they may cover specialty
                                 areas.

Transaction Account              Component of FDIC’s Temporary Liquidity Guarantee
Guarantee Program                Program. FDIC established the Temporary Liquidity
                                 Guarantee Program in October 2008 as part of a
                                 coordinated effort by the FDIC, the Department of the
                                 Treasury, and the Federal Reserve to address
                                 unprecedented disruptions in credit markets and the
                                 resultant inability of financial institutions to fund
                                 themselves and make loans to creditworthy
                                 borrowers. The Temporary Liquidity Guarantee
                                 Program is composed of two distinct components:
                                 (1) the Debt Guarantee Program and (2) the
                                 Transaction Account Guarantee Program. Pursuant to
                                 the Debt Guarantee Program, FDIC guarantees certain
                                 senior unsecured debt issued by participating entities.
                                 Pursuant to the Transaction Account Guarantee
                                 Program, FDIC guarantees all funds held in qualifying
                                 noninterest-bearing transaction accounts at
                                 participating insured depositary institutions. Originally
                                 scheduled to expire on December 31, 2009, FDIC
                                 extended the Transaction Account Guarantee Program
                                 in August 2009 until June 30, 2010. Participating
                                 insured depositary institutions pay an assessment fee
                                 for the additional FDIC guarantee.



                 Material Loss Review of Omni National Bank (OIG-10-017)            Page 44
                    Appendix 3
                    Glossary of Terms




Uniform Bank                        An analytical tool created by the Federal Financial
Performance Report                  Institutions Examinations Council to help supervise
                                    and examine financial institutions. A UBPR is produced
                                    quarterly for each commercial bank that is supervised
                                    by the Board of Governors of the Federal Reserve
                                    System, FDIC, or OCC. The performance and
                                    composition data in the report are presented in the
                                    form of ratios, percentages, and dollar amounts and
                                    are computed mainly from call reports submitted by
                                    the bank. The UBPR also provides comparisons of an
                                    individual bank’s performance and balance sheet
                                    structure with those of similarly sized banks.

Washington Supervision              An OCC headquarters committee that ensures
Review Committee                    OCC bank supervision and enforcement policies are
                                    applied effectively and consistently. The committee
                                    advises the senior deputy comptrollers for bank
                                    supervision operations on bank supervision and
                                    enforcement cases by providing recommendations on
                                    supervisory strategies and enforcement actions.

Watch list                          A listing of banks within each OCC district that merit
                                    close attention. Banks on OCC’s watch lists have
                                    CAMELS composite ratings of 1 or 2 and limited
                                    weaknesses that are not pervasive enough to be
                                    designated as problem banks.

Wholesale funding                   Funding obtained by financial institutions through such
                                    sources as federal funds, public funds, Federal Home
                                    Loan Bank advances, the Federal Reserve’s primary
                                    credit program, foreign deposits, brokered deposits,
                                    and deposits obtained through the Internet or
                                    certificate of deposit listing services.




                    Material Loss Review of Omni National Bank (OIG-10-017)          Page 45
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of Omni National
Bank (Omni), including examinations conducted and enforcement actions taken by the
Office of the Comptroller of the Currency (OCC). Appendix 5 contains additional
information on the results of examinations, including any significant safety and
soundness matters requiring attention, and recommended actions.

Date                   Event
1992                   Omni Financial Services, Incorporated (OFSI), commences operations as a
                       private redevelopment lender in Atlanta, Georgia.
3/7/2000               The Board of Governors of the Federal Reserve System approves OFSI’s
                       application to become a bank holding company through its acquisition of
                       United National Bank.
2/15/2001              United National Bank’s name is changed to Omni National Bank. The bank’s
                       headquarters are located in Fayetteville, North Carolina.
1/2/2002               OCC begins a full-scope examination of Omni resulting in the 2001 report
                       of examination (ROE). The bank receives a CAMELS composite rating of 2
                       as a result of the examination.
6/9/2003               OCC begins a full-scope examination of Omni (2003 ROE). The bank’s
                       CAMELS composite rating remains a 2 as a result of the examination.
10/21/2003             The operating subsidiary Omni Appraisal Services LLC is established in
                       Atlanta, Georgia.
6/24/2004              Omni acquires Premier Community Bank in Venice, Florida, and opens a de
                       novo branch in Tampa, Florida.
1/18/2005              OCC begins a full-scope examination of Omni (2004 ROE). The bank’s
                       CAMELS composite rating remains a 2 as a result of the examination.
6/21/2005              Omni National Bank establishes a branch in Oak Park, Illinois.
7/1/2005               Outstanding shares of Georgia Community Bancshares stock are acquired
                       by OFSI. Georgia Community Bancshares is merged into Omni National
                       Bank. The bank’s headquarters are moved from Fayetteville, North Carolina
                       to Atlanta, Georgia.
2/16/2006              OCC begins a full-scope examination of Omni (2005 ROE). The bank’s
                       CAMELS composite rating remains a 2 as a result of the examination.
9/29/2006              OFSI stock begins to be traded on the NASDAQ Stock Market.
2/5/2007               OCC begins a full-scope examination of Omni (2006 ROE). The bank’s
                       CAMELS composite rating remains a 2 as a result of the examination.
7/2/2007               Omni acquires Wilson State Bank in Texas.
12/4/07                Omni is added to OCC’s bank watch list.
1/7/2008               OCC begins a full-scope examination of Omni (2007 ROE).
4/29/2008              Omni re-files call report for quarter ending December 31, 2007.
7/9/2008               OCC’s Southern District Supervision Review Committee approves the
                       Atlanta, Georgia, field office recommendations of a CAMELS composite 4
                       rating for the bank and the implementation of a consent order.
7/10/2008              The Southern District Supervision Review Committee requests concurrence
                       from the Washington Supervision Review Committee to cite the bank for
                       Bank Secrecy Act/anti-money laundering violations and implementation of a
                       consent order.


                   Material Loss Review of Omni National Bank (OIG-10-017)                Page 46
             Appendix 4
             Chronology of Significant Events




Date             Event
7/17/2008        Omni is added to OCC’s problem bank report.
7/18/2008        OCC notifies Omni of its troubled condition designation pursuant to 12
                 U.S.C. § 1831i and 12 C.F.R. § 5.51 and that supervision of the bank has
                 been transferred to the Special Supervision Division in Washington, D.C.
                 OFSI receives notice from the NASDAQ hearings panel acknowledging the
                 holding company’s request to be delisted. Trading of OSFI’s common stock
                 will be suspended effective on July 22, 2008. OSFI’s delisting will become
                 effective 10 days after NASDAQ files a Form 25 with the Securities and
                 Exchange Commission.
7/30/2008        Omni re-files call reports for quarters ending December 31, 2007 and
                 March 31, 2008. The call report shows the bank is adequately capitalized
                 for Prompt Corrective Action (PCA) purposes as of December 31, 2007.
8/4/2008         OCC sends Omni a letter notifying the bank of its adequately capitalized
                 status for PCA purposes based on the call report for the quarter ending
                 June 30, 2008. The letter informs the bank that it is prohibited from
                 accepting or renewing brokered deposits unless it obtains a waiver from the
                 Federal Deposit Insurance Corporation.
8/20/2008        OCC’s senior deputy comptroller approves an Order of Investigation of
                 Omni’s redevelopment lending practices.
9/8/2008         OCC begins a targeted examination of Omni (2008 ROE). Objectives of
                 examination are to assess the bank’s viability and quantify how much
                 capital the bank will need to comply with the minimum capital requirements
                 included in a planned consent order.
9/15/2008        OCC issues the 2007 report of examination on Omni. OCC downgrades the
                 bank’s CAMELS composite rating to a 5 and recommends implementation
                 of a consent order.
10/7/2008        Omni enters into a consent order with OCC.
10/30/2008       Omni re-files call reports for quarters ending December 31, 2007, March
                 31, 2008, and June 30, 2008.
11/4/2008        OCC notifies Omni that the bank is undercapitalized for PCA purposes
                 based on the call report for the quarter ending September 30, 2008. Omni
                 is required to submit an acceptable capital restoration plan by
                 December 15, 2008.
12/12/2008       Omni sells four branches in North Carolina to Capital Bank to increase
                 capital.
12/15/2008       Omni submits a capital restoration plan to OCC
1/22/2009        Omni re-files call reports for quarters ending December 31, 2007, March
                 31, 2008, and June 30, 2008.
1/30/2009        OCC notifies Omni that the capital restoration plan submitted is
                 unacceptable because it is based on unrealistic assumptions, does not
                 address how deficiencies will be corrected and fails to include a pledge of
                 assets from the holding company. Omni re-files call report for quarter
                 ending September 30, 2008.
2/4/2009         OCC notifies Omni of its significantly undercapitalized status for PCA
                 purposes based on the call report for the quarter ending December 31,
                 2008.


             Material Loss Review of Omni National Bank (OIG-10-017)                  Page 47
             Appendix 4
             Chronology of Significant Events




Date             Event
2/27/2009        OCC issues the 2008 report of examination. Omni’s composite CAMELS
                 rating remains a 5.
3/27/2009        OCC closes Omni and appoints the Federal Deposit Insurance Corporation
                 as receiver. The loss to the Deposit Insurance Fund caused by this failure is
                 estimated to be $290 million.
5/11/2009        The Federal Deposit Insurance Corporation’s estimate of the loss to the
                 Deposit Insurance Fund due to Omni’s failure is now $228.9 million, or
                 24.4 percent of the bank’s assets.
10/31/2009       The Federal Deposit Insurance Corporation’s estimated loss to the Deposit
                 Insurance Fund due to Omni’s failure is now $288.2 million and the loss to
                 the Transaction Account Guarantee Program is $0.9 million.




             Material Loss Review of Omni National Bank (OIG-10-017)                    Page 48
                    Appendix 5
                    OCC Omni National Bank Examinations, Significant Issues, and Enforcement
                    Actions


This appendix summarizes the Office of the Comptroller of the Currency’s (OCC)
safety and soundness and targeted examinations of Omni National Bank (Omni) from
June 2003 through September 2008 and provides information on the significant
results of those examinations. We list the following items from the reports of
examination (ROE): (1) matters requiring attention and (2) other issues. Generally,
matters requiring attention represent the most significant items requiring corrective
action and are more serious.

Date
examination   CAMELS       Assets         Significant safety and soundness corrective      Enforcement
started       rating       ($Millions)    actions and other issues cited in ROEs           action
6/9/2003      2/222221        $211.6      Matters requiring attention                         None
                                          • Credit administration:
                                             o Reduce the high level of credit
                                                  administration weaknesses.
                                             o Enhance exceptions tracking and
                                                  reporting.
                                             o Expand loan policy to address loans
                                                  to affiliates, other real estate owned
                                                  (OREO), and retail credit charge-
                                                  offs.
                                          • Liquidity management:
                                             o Strengthen liquidity management
                                                  reports.
                                             o Implement an effective contingency
                                                  funding plan.

                                          •   Information technology:
                                               o Establish a corporate-wide business
                                                   resumption plan.
                                               o Perform a full technology audit.
                                               o Perform a full risk assessment.

                                          Other issues/recommendations
                                          •   Calculate concentrations as a
                                              percentage of the bank's capital
                                              structure, not total loans.
                                          •   Expand scope of external review to
                                              OREO.
                                          •   Include assessment of exceptions in
                                              loan review.
                                          • Violations cited:
                                              o 12 U.S.C. § 1828(o)--Real Estate
                                                  Lending.
                                              o 12 C.F.R. 34.43(a) and 12 C.F.R.
                                                  34.43 (a)(1)—Appraisals required;
                                                  transactions requiring a state-

                    Material Loss Review of Omni National Bank (OIG-10-017)                     Page 49
                    Appendix 5
                    OCC Omni National Bank Examinations, Significant Issues, and Enforcement
                    Actions


Date
examination   CAMELS       Assets         Significant safety and soundness corrective   Enforcement
started       rating       ($Millions)    actions and other issues cited in ROEs        action
                                                  certified or licensed appraiser.
                                              o   12 U.S.C. § 29--Power to hold real
                                                  property.

1/18/2005     2/222121       $315.5       Matters requiring attention                      None
                                          • Credit administration—Lack of financial
                                             information and reviews:
                                              o Implement a plan for reducing the
                                                  high level of lending relationships
                                                  without adequate financial
                                                  information.
                                              o Establish guidelines for obtaining
                                                  and maintaining adequate financial
                                                  information on new loans as well as
                                                  renewals and modifications.
                                              o Develop a process and criteria for
                                                  performing annual credit reviews.

                                          Other issues/recommendations
                                          • Implement guidelines for performing
                                             annual reviews for certain credit
                                             relationships.
                                          • Implement a liquidity planning process
                                             immediately.
                                          • Expand the contingency funding plan
                                             analysis of reasonable and realistic
                                             disruptions.

2/16/2006     2/222221        $476.7      Matters requiring attention                      None
                                          • Establish an adequate contingency
                                             funding plan.

                                          Other issues/recommendations
                                          • Enhance the U.S. Patriot Act customer
                                             identification program risk assessment
                                             process by assigning risk ratings to
                                             customers.
2/5/2007      2/222122        $705.9      Matters requiring attention                     None
                                          •   Improve deficient Bank Secrecy Act/
                                              anti-money laundering risk assessment
                                              and oversight.

                                          Other issues/recommendations
                                          •  Validate the simulation model to
                                             enhance the interest rate risk

                    Material Loss Review of Omni National Bank (OIG-10-017)                  Page 50
                    Appendix 5
                    OCC Omni National Bank Examinations, Significant Issues, and Enforcement
                    Actions


Date
examination   CAMELS       Assets         Significant safety and soundness corrective      Enforcement
started       rating       ($Millions)    actions and other issues cited in ROEs           action
                                              measurement system.
                                          •   Determine acceptable concentration
                                              limits on certain exposures.
                                          •   Strengthen Internal Audit oversight to
                                              do the following:
                                              o Ensure that auditor and third-party
                                                   reviews identify and communicate
                                                   the root cause of deficiencies.
                                              o Place accountability on an individual
                                                   to address deficiencies.
                                              o Follow up on any unresolved
                                                   deficiencies requiring management's
                                                   attention.
                                              o Ensure that the "draft" report,
                                                   management responses, and final
                                                   audit report are timely.
                                              o Present all third-party reviews to the
                                                   audit committee or the board of
                                                   directors.
                                              o Ensure that audit committee
                                                   minutes reflect meeting discussions.

1/7/2008      5/555542          $906.6    Matters requiring attention                     Omni entered
                                          • Rectify inadequate board and                  into a consent
                                             management oversight. The consent            order on
                                             order to be implemented by OCC will
                                                                                          10/7/2008
                                             address board and management
                                             oversight concerns and require timely
                                             corrective actions.
                                          • Improve unsatisfactory Bank Secrecy
                                             Act compliance program.

                                          Other issues/recommendations
                                          •   Enhance the control environment to
                                              ensure accurate and efficient risk
                                              monitoring by taking steps that include
                                              the following:
                                              o Strengthen major policies,
                                                  particularly lending policy.
                                              o Develop clear and consistent
                                                  operating procedures.
                                              o Develop a clearly defined system of
                                                  management and employee
                                                  accountability.
                                              o Establish control systems to enforce

                    Material Loss Review of Omni National Bank (OIG-10-017)                      Page 51
                   Appendix 5
                   OCC Omni National Bank Examinations, Significant Issues, and Enforcement
                   Actions


Date
examination   CAMELS      Assets         Significant safety and soundness corrective       Enforcement
started       rating      ($Millions)    actions and other issues cited in ROEs            action
                                                  strict performance standards.
                                             o    Hold management accountable for
                                                  ensuring bank practices are
                                                  centralized.
                                             o Enforce operating procedures and
                                                  board risk tolerances.
                                         •   Re-file the 12/31/2007,
                                             3/31/2008, and 6/30/2008 call
                                             reports to reflect OREO write-
                                             downs.
                                         •   Violations cited:
                                             o 12 U.S.C. § 161 Reports to
                                                 Comptroller of the Currency.
                                             o 12 C.F.R. § 21.21(C)(1) -
                                                 Procedures for monitoring Bank
                                                 Secrecy Act Compliance.
                                             o 12 C.F.R. § 22.9(c) - Notice of
                                                 flood hazards and availability of
                                                 Federal disaster relief assistance.
                                             o 12 C.F.R § 34.43(a) Appraisals;
                                                 appraisals required; transactions
                                                 requiring a state-certified or licensed
                                                 appraiser.
                                             o 12 C.F.R. § 34.44 Appraisals;
                                                 minimum appraisal standards.
                                             o 12 C.F.R. § 34.85 OREO; appraisal
                                                 requirements.
                                             o 12 C.F.R. § 363.4(a)—Filing and
                                                 notice requirements; annual
                                                 reporting.
                                             o 31 C.F.R. § 103.29(A)(1) and 31
                                                 C.F.R. § 103.29(B)(1) Cash
                                                 purchases of bank checks and
                                                 drafts, cashier’s checks, money
                                                 orders and traveler's checks.

                                         Consent order requirements
                                         • Establish a compliance committee.
                                         • Submit a 3-year strategic plan.
                                         • Maintain new minimum capital ratios
                                            and submit a written capital plan.
                                         • Identify a qualified chief credit/senior
                                            loan officer candidate.
                                         • Develop a comprehensive liquidity

                   Material Loss Review of Omni National Bank (OIG-10-017)                      Page 52
                    Appendix 5
                    OCC Omni National Bank Examinations, Significant Issues, and Enforcement
                    Actions


Date
examination   CAMELS       Assets         Significant safety and soundness corrective    Enforcement
started       rating       ($Millions)    actions and other issues cited in ROEs         action
                                              management program.
                                          •   Ensure adherence to written credit
                                              policies.
                                          •   Revise and ensure adherence to written
                                              lending policies.
                                          •   Revise and ensure adherence to written
                                              construction loan underwriting policies.
                                          •   Implement and ensure adherence to
                                              commercial real estate concentration
                                              management program.
                                          •   Obtain satisfactory credit information
                                              on all loans as needed and ensure
                                              proper collateral documentation is
                                              maintained on all loans.
                                          •   Employ qualified bank officials to
                                              timely identify problem loans.
                                          •   Maintain an adequate program for the
                                              allowance for loan and lease losses.
                                          •   Take immediate action to protect the
                                              bank’s interest in criticized assets.
                                          •   Develop and implement an independent
                                              appraisal review and analysis process.
                                          •   Implement and adhere to an OREO
                                              management program.
                                          •   Revise and strengthen Bank Secrecy
                                              Act and anti-money laundering
                                              programs.
                                          •   Ensure the audited 2007 financial
                                              statements are published.
                                          •   Ensure adherence to an independent
                                              internal audit program.
                                          •   Ensure all violations of laws are
                                              corrected.
                                          •   Submit administrative appeals and
                                              extension requests in writing.


9/8/08        5/555544          $979.6    Matters requiring attention                    None
                                          None identified. The objective of this
                                          examination was to assess the bank’s


                    Material Loss Review of Omni National Bank (OIG-10-017)                     Page 53
                        Appendix 5
                        OCC Omni National Bank Examinations, Significant Issues, and Enforcement
                        Actions


Date
examination    CAMELS           Assets         Significant safety and soundness corrective    Enforcement
started        rating           ($Millions)    actions and other issues cited in ROEs         action
                                               viability and determine the amount of
                                               capital required to achieve compliance with
                                               the planned Consent Order.

                                               Other issues/recommendations
                                               •   Improve credit administration practices.
                                               •   Improve real estate appraisal process.
                                               •   Improve identification and management
                                                   of problem loans to prevent continued
                                                   erosion of the bank’s earnings and
                                                   capital.
                                               •   Modify the allowance for loan and lease
                                                   losses methodology to comply with
                                                   accounting guidance and minimum
                                                   documentation requirements.

                                               Violations cited:
                                               •    12 C.F.R. § 34.43—Calculate
                                                    Appraisals.
                                               •    12 C.F.R. § 34.44(b and c)—Minimum
                                                    appraisal standards.
                                               •   12 C.F.R. § 34.45(b)(2)—Appraiser
                                                   independence.
Source: OIG analysis of OCC Reports of Examination.




                        Material Loss Review of Omni National Bank (OIG-10-017)                    Page 54
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations


Since November 2008, we have completed five mandated material loss reviews of
failed banks regulated by the Office of the Comptroller of the Currency (OCC) in
addition to our review of Omni National Bank. This appendix provides our
recommendations to the OCC resulting from these reviews. OCC management
concurred with the recommendations and has taken or planned corrective actions that
are responsive to them. In certain instances, the recommendations address matters
that require ongoing OCC management and examiner attention.

                                                     Recommendations to the Comptroller of the
 Report Title                                        Currency
 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners that they must
 ANB Financial, NA, OIG-09-013 (Nov. 25, 2008)       closely investigate an institution’s circumstances
                                                     and alter the supervisory plan if certain
 OCC closed ANB Financial and appointed the          circumstances exist as specified in OCC’s
 Federal Deposit Insurance Corporation (FDIC) as     Examiner’s Guide to Problem Bank Identification,
 receiver on May 9, 2008. At that time, FDIC         Rehabilitation, and Resolution.
 estimated that ANB Financial’s failure would
 cost the Deposit Insurance Fund $214 million.       Re-emphasize to examiners that formal
 FDIC’s estimated cost to the Deposit Insurance      enforcement action is presumed warranted when
 Fund associated with ANB Financial’s failure        certain circumstances specified in OCC’s
 increased to $819 as of October 31, 2009.           Enforcement Action Policy (PPM 5310-3) exist.
                                                     Examiners should also be directed to document
                                                     in the examination files the reason for not taking
                                                     formal enforcement action if those
                                                     circumstances do exist.

                                                     Reassess guidance and examination procedures
                                                     in the Comptroller’s Handbook related to bank
                                                     use of wholesale funding with a focus on heavy
                                                     reliance on brokered deposits and other nonretail
                                                     deposit funding sources for growth.

                                                     Establish in policy a “lessons-learned” process to
                                                     assess the causes of bank failures and the
                                                     supervision exercised over the institution and to
                                                     take appropriate action to address any
                                                     significant weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners the need to ensure
 First National Bank of Nevada and First Heritage    that banks take swift corrective actions in
 Bank, NA, OIG-09-033 (Feb. 27, 2009)                response to examination findings.

 OCC closed First National Bank of Nevada and        Re-emphasize to examiners OCC’s policy on the
 First Heritage Bank on July 25, 2008, and           preparation of supervision workpapers. (That is
 appointed FDIC as receiver. As of December 31,      workpapers are to be clear, concise, and readily
 2008, FDIC estimated a loss to the Deposit          understood by other examiners and reviewers).
 Insurance Fund of $706 million for First National
 Bank of Nevada and $33 million for First

                      Material Loss Review of Omni National Bank (OIG-10-017)                    Page 55
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations


                                                   Recommendations to the Comptroller of the
Report Title                                       Currency
Heritage Bank.
Safety and Soundness: Material Loss Review of      Conduct a review of investments by national
the National Bank of Commerce, OIG-09-042          banks for any potential high-risk concentrations
(Aug. 6, 2009)                                     and take appropriate supervisory action.

OCC closed the National Bank of Commerce and       Reassess examination guidance regarding
appointed FDIC as receiver on January 16,          investment securities, including [government-
2009. As of June 30, 2009, FDIC estimated          sponsored enterprise] securities.
that the bank’s failure would cost the Deposit
Insurance Fund $92.5 million.
Safety and Soundness: Material Loss Review of      Caution examiners and their supervisors that it is
Ocala National Bank, OIG-09-043 (Aug.26,           incumbent that they support and document
2009)                                              CAMELS ratings, including those that did not
                                                   change from prior examinations, and support
OCC closed Ocala National Bank and appointed       decisions not to take enforcement action.
FDIC as receiver on January 30, 2009. As of
August 7, 2009, FDIC estimated that the bank’s     Remind examiners that it is prudent to expand
failure would cost the Deposit Insurance Fund      examination procedures for troubled or high-risk
$99.6 million.                                     banks to review the appropriateness of (a)
                                                   dividends and (b) payments to related
                                                   organizations, particularly when the dividends or
                                                   payments may benefit bank management and
                                                   board members. OCC should reassess and revise
                                                   examination guidance related to when expanded
                                                   reviews of dividends and related organizations
                                                   should be performed.
Safety and Soundness: Material Loss Review of      Emphasize to examiners that matters requiring
TeamBank, National Association OIG-10-001          attention are to be issued in reports of
(Oct.07, 2009)                                     examination in accordance with the criteria
                                                   regarding deviations from sound management
OCC closed TeamBank, National Association and      and noncompliance with laws or policies listed in
appointed FDIC as receiver on March 20, 2009.      the Comptroller’s Handbook.
As of September 18, 2009, FDIC estimated that
the bank’s failure would cost the Deposit          Emphasize to examiners the need to
Insurance Fund $98.4 million.
                                                   (a) adequately assess the responsibilities of a
                                                       controlling official (chief executive
                                                       officer/president, for example) managing the
                                                       bank to ensure that the official’s duties are
                                                       commensurate with the risk profile and
                                                       growth strategy of the institution;
                                                   (b) review incentive compensation and bonus
                                                       plans for executives and loan officers; and
                                                   (c) ensure that banks conduct transactional and
                                                       portfolio stress testing when appropriate.




                    Material Loss Review of Omni National Bank (OIG-10-017)                     Page 56
Appendix 7
Management Comments




Material Loss Review of Omni National Bank (OIG-10-017)   Page 57
Appendix 7
Management Comments




Material Loss Review of Omni National Bank (OIG-10-017)   Page 58
Appendix 7
Management Comments




Material Loss Review of Omni National Bank (OIG-10-017)   Page 59
Appendix 8
Major Contributors To This Report




Boston Audit Office

Kenneth Dion, Audit Manager
Kenneth O’Loughlin, Auditor-in-Charge
Alex Taubinger, Auditor
Jason Madden, Auditor
Maryann Costello, Auditor
Kaytlin Kovach, Auditor

Washington, DC

Deborah Harker, Referencer




Material Loss Review of Omni National Bank (OIG-10-017)   Page 60
Appendix 9
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Senior Advisor-OIG/GAO Liaison

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of Omni National Bank (OIG-10-017)   Page 61
